               Office of Inspector General




March 28, 2006

WALTER O’TORMEY
VICE PRESIDENT ENGINEERING

SUBJECT: Technology Acquisition Management Process Manual - Phase 1, Proof of
         Concept (Report Product Number DA-WP-06-001)

This letter provides the results of our review of the draft Technology Acquisition
Management (TAM) Process Manual - Phase 1, Proof of Concept, dated January 26,
20061 (Project Number 06XR001DA000). We performed the review in accordance with
the Value Proposition Agreement, dated October 6, 2005.

In September 2004, the U.S. Postal Service Office of Inspector General (OIG)
recommended that Engineering develop written policies and procedures to better
manage acquisitions in a report entitled, Technology Acquisition Management (Report
Number DA-AR-04-003). In response, Engineering initiated efforts to further develop,
standardize, and document its internal procedures and further develop procedures to
address program management activities, such as conditional acceptance criteria.
Engineering sought the OIG’s assistance in the development efforts, so together we
formed a Value Proposition Agreement. Our objectives were to determine whether the
draft manual corresponded to acquisition management procedures prescribed by the
National Aeronautics and Space Administration (NASA), the Department of Defense
(DOD), and the Carnegie-Mellon Institute. In addition, we determined whether the draft
manual addressed internal controls prescribed by the Government Accountability Office
and prior OIG report recommendations.

To accomplish the objectives, we met regularly with TAM executives and the process
development team to provide feedback on draft versions of the manual. The OIG plans
to continue implementing the Value Proposition Agreement and expects to issue
additional letter reports as the TAM process development team completes phases 2
through 4 of the TAM Process Manual.

In general, the procedures documented in the draft manual were consistent with
acquisition management procedures prescribed by NASA, DOD, and the Carnegie-
Mellon Institute, and addressed internal controls and prior OIG report recommendations.




1
    See Appendix A for the transmittal letter accompanying the draft TAM Process Manual.
Technology Acquisition Management Process Manual - Phase 1             DA-WP-06-001
 Proof of Concept


For instance, the draft manual prescribed a disciplined approach to defining
requirements and preparing program plans. However, the TAM process development
team agreed that additional opportunities exist to further strengthen and improve the
manual. Specific areas that could be enhanced include documenting risk management
processes, program plan approvals, and user group participation in developing
requirements. The results of our review are summarized below and presented in more
detail in Appendix B.

•   Risk Management Processes

    The draft manual requires the program manager to identify major program risks.
    The OIG suggested providing a template for documenting and evaluating identified
    risks at specific intervals or milestone events. NASA and the Carnegie-Mellon
    Institute use continuous risk management to mitigate program risks. Requiring the
    program manager to document, regularly review, and assess risks in a continually
    evolving environment should increase the potential for successful acquisition. The
    TAM process development team is developing risk management templates for
    inclusion in the TAM Process Manual to better document risk management activities
    at specific intervals or milestone events. These templates will be further refined as
    TAM develops and documents procedures for follow-on acquisition management
    phases and included as attachments to the TAM Process Manual.

•   Program Plan Approvals

    The draft manual required the program manager to prepare an overall program plan;
    however, it did not require documented approval of initial program plans and
    significant changes. NASA maintained documentation of approvals for the initial
    plan and subsequent major changes. If the Postal Service has formal procedures
    for approving and documenting program plans and subsequent changes, this will
    ensure senior managers are aware of program requirements and agree with plans
    for completion. The TAM process development team will clarify TAM Process
    Manual procedures to ensure that program managers obtain documented approval
    for initial program plans and significant changes afterwards.

•   User Group Participation in Developing Requirements

    While the user community is involved during requirements definition, the process
    does not address how their input is documented. Carnegie-Mellon Institute
    guidance prescribes obtaining user community input during requirements definition
    and documenting their agreement. Including the user community and documenting
    their participation in the requirements definition process should help ensure
    acquisitions better meet future Postal Service requirements. The TAM process
    development team will update the process to define how the user community input is
    solicited, reviewed, and documented.




                                                 2
Technology Acquisition Management Process Manual - Phase 1             DA-WP-06-001
 Proof of Concept


Engineering has made noteworthy progress in developing the TAM Process Manual.
During the review, Engineering was highly responsive to comments and suggestions
and the team effort resulted in numerous improvements. We acknowledge
Engineering’s commitment to enhancing its processes and agree that documented
procedures should enhance their ability to deliver the right capabilities on schedule and
at predictable costs. We will review the complete draft TAM Process Manual before its
publication to ensure that agreed-upon opportunities for improvement are considered.

Because of management’s responsiveness, and having an opportunity to comment on
the TAM Process Manual in its entirety prior to publication, we have no
recommendations at this time. Management reviewed a discussion draft and provided
feedback, which we have taken into account in this final report. While no response is
necessary, we appreciate the cooperation and courtesies provided by your staff. If you
have any questions or need additional information, please contact Miguel Castillo,
director, Engineering; Judy Leonhardt, director, Supply Management and Facilities; or
me at (703) 248-2300.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI




for
Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Susan M. Brownell
    Aron M. Sanchez
    Donald E. Crone
    J. Otis Smith
    John F. Keegan
    Steven R. Phelps




                                                 3
Technology Acquisition Management Process Manual - Phase 1   DA-WP-06-001
 Proof of Concept


       APPENDIX A. TECHNOLOGY ACQUISITION MANAGEMENT
            PROCESS MANUAL (TRANSMITTAL LETTER)




                                                 4
Technology Acquisition Management Process Manual - Phase 1                  DA-WP-06-001
 Proof of Concept



                                         APPENDIX B. OIG PHASE I ANALYSIS




                                                             5
Technology Acquisition Management Process Manual - Phase 1                   DA-WP-06-001
 Proof of Concept



                              APPENDIX B. OIG PHASE 1 ANALYSIS (CONTINUED)




                                                             6
Technology Acquisition Management Process Manual - Phase 1                   DA-WP-06-001
 Proof of Concept


                              APPENDIX B. OIG PHASE 1 ANALYSIS (CONTINUED)




                                                             7
